AU99-016 July 1999
Home < Reports < Audit Reports   Legal Services Corporation Office of Inspector General
Results of Recipient Audit Reports for the Year Ended December 31, 1998
Final Report No. AU99-016
July 1999
Other formats: PDF 31K | Word97 52K
July 21, 1999
TO THE BOARD OF DIRECTORS
OF
THE LEGAL SERVICES CORPORATION
As you know, the Corporation's fiscal year 1996 appropriations statute (Pub. L. No. 104-134) directed that annual financial statement audits be used as the primary means for checking grantee compliance with applicable laws and regulations.  The fiscal year 1998 appropriations act (Pub. L. No. 105-119) also included this provision.  This report presents the results of the 1998 audits of LSC's grantees.
Independent Public Accountants (IPAs) reported 115 critical findings related to 50 grantees in the 263 audit reports received. After reviewing these findings the OIG concluded that 59 were significant and referred them to LSC management for follow up.  None of the referred findings were for grantee noncompliance with prohibitions and restrictions on the provision of legal services.
Most of the findings were for internal control weaknesses such as  a failure to follow procedures or delays in processing financial transactions. Other findings involved missing or unsigned documents, time keeping deficiencies and a lack of procedures for implementing regulations.
This report will be presented to the Corporation's authorization and appropriations committees of Congress immediately and will be made available to the public not later than July 31, 1999.
E. R. Quatrevaux
Inspector General
TABLE OF CONTENTS
Results
Summary of Significant Findings
Findings Not Referred to Management
Audit Requirements
Scope and Methodology
Processing Recipient Audit Reports
Focused Review
Resolution
Corrective Action
Quality Control Process
RESULTS
The OIG received 263 calendar year 1998 financial statement audit reports from LSC grantees.  These reports contained 115 findings.  Fifty-nine findings were considered significant and were referred to LSC management for follow up to ensure that the grantees corrected the reported problems.  Although the categories are not mutually exclusive and some findings could be listed in more than one category, the following summary shows each finding in only one category for ease of reference.
Summary of Significant Findings Referred to Management
Grantee Audit Reports Calendar Year 1998
CategoryNumber of Findings
Internal Control Problems
Processing financial data
Weaknesses over cash receipts/disbursements
Reconciliation of client trust accounts
Procedures lacking or not followed
Segregation of duties23
Missing documents and/or unsigned documents (i.e., client state-
ment of facts, citizenship attestation, retainer agreements)10
Procedures to implement regulations lacking7
Timekeeping procedures and/or systems problems5
Qualified Opinion in Audit Report4
Case management reporting3
LSC fund balance was greater than 10% of LSC support
requiring a waiver from LSC1
Other procedural/regulatory problems6
Total59
Noncompliance with Restrictions
The IPAs did not report any cases of noncompliance with statutory prohibitions or restrictions on the types of matters for which legal assistance may be provided.
Internal Controls
The largest number of significant findings (23) were related to deficiencies in the internal control system.  These findings primarily covered controls over financial transactions and data.  In other cases, adequate internal control procedures were lacking or not followed.
Missing Documentation
The second largest number of significant findings (10) concerned missing documents, such as client statements of facts, citizenship attestations, and retainer agreements.  Findings of missing documents were considered significant because the absence of documentation can obscure instances of noncompliance with statutory requirements or other reportable conditions.
Procedures for Implementing Regulations Lacking
Seven findings reported that the grantees  had not adopted procedures to implement LSC requirements.  The findings related to regulations covering the restriction on assisted suicide cases and the requirement to provide LSC information on cases filed in court.
Timekeeping Deficiencies
Five findings reported deficiencies in timekeeping systems.  These findings were considered significant because accurate and reliable timekeeping is essential to ensure that there are no violations of prohibitions or restrictions.
Case Management Reporting
Three findings reported errors in grantees' reporting of case statistical data to LSC. These findings were considered significant because LSC established case statistical data as a performance measure when reporting under the Government Performance and Results Act.
LSC Fund Balance
One finding reported that a grantee had a fund balance that was significantly in excess of the amount allowed by LSC regulations.  The grantee did not request a waiver from LSC to allow the funds to be retained.  All excess fund balance findings are considered significant and reported to LSC management.
Other Procedural or Regulatory Problems
Six findings covered procedural or regulatory problems as in the following list.
An LSC required report on planned priorities on use of resources was not prepared.
Intake forms were not correctly completed.
Private Attorney Involvement expenditures did not meet the required minimum amount.
A required report on legislative and rulemaking activities was not prepared.
A written policy covering fee generating cases was not adopted.
Prior approval for a payment over $25,000 was not obtained as required.
Repeat Findings
Six of the above described findings were repeat findings from the fiscal year 1997 audit reports.  In these cases, the grantee did not correct, or only partially corrected the problem reported the prior year.  The grantees did not provide reasonable explanations for their failure to correct previously reported problems.
OIG Follow Up On Findings
The OIG followed up on one finding on case statistical reporting.  The OIG was auditing the grantee's case statistics and the OIG report will make recommendations for corrective action.
Findings Not Referred To Management
The IPAs reported 55 additional findings in audit reports for 36 grantees.  After reviewing these reports, the OIG concluded that the findings did not warrant mandatory follow-up by LSC management.  Generally, the problems had been corrected or were considered not significant and were communicated to LSC management via the Audit Information Management System (AIMS).  These findings were not considered significant for following reasons.
(20)Few insignificant errors in sample and problems not systemic.
(18)Corrective action taken subsequent to audit
( 6)Minor omissions or discrepancies, i.e., document obtained and signed but undated.
( 6)Minor internal control problem.
( 2)Failure to take a physical inventory of law library or other assets, but corrective action taken
( 2)Qualified audit opinion based on minor issues
( 1)Audit report late
AUDIT REQUIREMENTS
Recipients of grants from the Legal Services Corporation (LSC) are responsible for preparing annual financial statements and arranging for audits of those statements by Independent Public Accountants (IPAs).  These audits are to be conducted in accordance with Government Auditing Standards promulgated by the Comptroller General of the United States, Office of Management and Budget (OMB) Circular A-133 "Audits of Institutions of Higher Education and Other Non-Profit Institutions" and the LSC "Audit Guide for Recipients and Auditors."
Recipients are required to arrange for audit reports to be submitted to the LSC Office of Inspector General (OIG) within 120 days of the recipients' fiscal year ends.  IPAs should follow the requirements of Government Auditing Standards, OMB Circular A-133, and American Institute of Certified Professional Accountants (AICPA) professional standards for guidance on the form and content of reports.  Such IPA reports include an opinion on the financial statements, a report on the internal control structure, a report on compliance with laws and regulations, and a management letter, when appropriate.
In addition, IPAs are required to submit a Summary Report Form on Noncompliance with Laws and Regulations, Questioned Costs, and Reportable Conditions (SRF).   IPAs must submit SRFs via the Internet by completing a form residing on the OIG website. The SRF must be submitted regardless of whether or not there are any audit findings to report.  The IPA reports on the SRF any instances of noncompliance, material reportable conditions and additional findings.  For reported findings, the IPA provides the findings description and Audit Guide code, the sample size and instances noted, the recipient response, and the amount of any questioned costs.
Under certain circumstances, the recipient is required to submit to the OIG a special report, commonly referred to as a 5-day letter.  When a determination has been made, based on sufficient competent evidential matter, that an instance of noncompliance has occurred, IPAs are to report immediately to the recipient.  The report must contain a description of the instances of noncompliance and the circumstances.  The recipient is required to submit to the OIG, with a copy to the IPA, a Recipient 5-day "Special Report" to the OIG on Noncompliance with Laws and Regulations within five business days after issuance of the IPA's special report to the recipient.   If the IPA does not receive a copy, the IPA must submit a copy of the report directly to the OIG within five business days of the recipient's failure to provide the required copy.
Recipients must submit corrective action plans to LSC for all findings and recommendations that include material reportable conditions in internal control, material noncompliance with laws and regulations identified in the LSC Compliance Supplement, and questioned costs including those of sub-recipients.  Recipients are required to develop corrective action plans describing the corrective action taken or planned in response to the audit findings and recommendations identified by the IPA.  If the recipient disagrees with the finding or believes that corrective action is not required, it must provide an explanation and specific reasons.  The recipient must submit the corrective action plan to LSC within 30 days of submission of the audit report.  Alternatively, the recipient has the option of incorporating the corrective action plans into the audit reports as part of its response to the auditor's findings and recommendations, but this option does not extend the due date for audit reports.
SCOPE AND METHODOLOGY
The scope of this report is grantee audit reports for the calendar year ended December 31, 1998.
Processing Recipient Audit Reports
The following is a summary of the process carried out by OIG and LSC management from receipt of the Summary Report Form (SRF) through implementation of corrective action.
The OIG developed an Audit Information Management System (AIMS) to support the audit review team in performing a desk review of the grant recipient audit reports by tracking and collecting the SRF, audit reports, 5-day letters, audit costs, and management letters. In addition, AIMS facilitates an OIG focused review, tracks the status, and documents the resolution and corrective action process of audit findings and recommendations.
Once the SRF is received, OIG staff validates the correctness of the SRF submission before it is accepted for entry into AIMS.  After the audit reports are received, OIG staff review them for completeness.
Focused Review
Next, the OIG conducts a focused review of audit findings and recommendations for SRF entries which have been accepted and have findings that the IPA considers critical.  The OIG auditors can create new findings or amend existing ones based on the SRF, the 5-day letter, the audit reports, and the management letter.   An auditor reviews the findings and recommendations and determines his or her recommended action, which is either to "invoke A-50" or to "close to inventory."  The LSC grantee audit follow up process incorporates the concepts of OMB Circular A-50 "Audit Follow up," and hence the use in AIMS of the term "invoke A-50."  The auditor then writes a justification for the recommended action.  The recommended action is then approved or revised by OIG audit management.
If the decision is to invoke A-50, OIG audit management refers the audit findings and recommendations to LSC management for follow up action.  The referral is made through AIMS by approving the finding for follow up and establishing a project code to track the follow up process through resolution and corrective action.
If the decision is to close to inventory, the findings and recommendations issued to grantees by their IPAs are retained in the AIMS system in an inventory of non-critical findings.  These findings are provided to LSC management by the OIG for information only and no follow up action is required.  However, under Government Auditing Standards, the IPAs are required to follow up on these findings in the next fiscal year audit.  If the IPAs report that these findings are still uncorrected, A-50 will be invoked at that time.
The decision of whether to invoke A-50 or to close to inventory rests on whether or not the finding is significant.  A significant finding is one deemed by the OIG to require management's attention based on quantitative and/or qualitative conditions contained in the finding and, thus, is referred to LSC management.  The following types of findings and recommendations by grantee IPAs will be referred to LSC management for follow up: instances of noncompliance with laws and regulations which have a material impact on the LSC program, instances of questioned or unsupported costs, instances of material weaknesses, reportable conditions that taken in whole or in part are indicative of a systemic problem, and uncorrected findings from prior reports.
LSC management has the responsibility for follow up on significant findings referred by the OIG to ensure that findings of deficiencies and noncompliance are resolved in a timely manner.  To facilitate the responsibilities of LSC management and the OIG, recipients are required to submit corrective action plans to LSC management. Corrective action plans are due 30 days after submission of the audit report. If a recipient does not submit a corrective action plan by the due date, LSC management contacts the grantee and requires immediate submission of the plan.
Resolution
Resolution is the point at which LSC management agrees with the grantee's proposed corrective action plan or accepts the grantee's disagreement with a reported finding and the OIG concurs in the management decision.  If agreement cannot be reached, resolution is reached when the LSC Audit Follow Up Official, designated by the LSC President, issues a decision on the matter.  LSC management reviews each referred finding and recommendation along with the corrective action plan proposed by the grantee to determine if it is satisfactory.  If the proposed corrective action is deemed unsatisfactory, LSC management communicates with the grantee to ensure a satisfactory corrective action plan.
LSC management ensures that proposed corrective actions are consistent with law, regulations, and LSC policy.  When accepting the grantee's disagreement with a reported finding or recommendation, LSC management ensures that the grantee provides an adequate written justification containing the legal and factual basis for the disagreement. LSC management notifies the OIG of the corrective action agreed upon by LSC management and the grantee, or of LSC management's acceptance of the grantee's disagreement within 30 days of receipt of the referred finding.
The OIG notifies LSC management within 15 days of its concurrence or nonconcurrence.  If the OIG concurs, the finding is considered resolved.  If the OIG does not concur, the Audit Follow Up Official has 15 days to seek agreement between LSC management and the OIG.  If no agreement is reached within the 15 days, the Audit Follow Up Official issues a decision within 7 days, and the finding is considered resolved.
Corrective Action
After resolution has been obtained, LSC management ensures that corrective actions have been taken by the grantee within six months of the date on which resolution is reached. LSC requires the grantee to provide sufficient documentation to ensure that the corrective action has been fully implemented.  In addition, the grantee is required to certify in writing that all corrective actions have been implemented.  LSC management then notifies the OIG of all completed corrective actions and provides the OIG with copies of the grantee certifications.  Upon receipt of the notification of completion, the OIG closes the respective findings and recommendations.  IPAs will also verify completion of corrective actions during the next fiscal year audit.
Quality Control Process
The OIG reviews all audit reports submitted with IPA determined critical findings.  In prior years, a sample of reports lacking critical findings was reviewed as part of the review process. This review disclosed few critical findings that were not reported and was not cost effective. Therefore, reviews of reports lacking critical findings were not a priority this year and to date, such reports have not been reviewed.  As staff is available, a small sample of reports with non-critical findings will be reviewed.
A better check on the quality of the IPA audits can be achieved through a review of the auditor's work papers that support the audit reports. On a test basis, the OIG reviews the IPAs' working papers to ensure the auditors adequately tested the grantees' compliance with LSC laws and regulations. We also verify that the audits were performed in conformity with applicable auditing standards and the LSC Audit Guide and Compliance Supplement requirements. In fiscal year 1999, we plan to review the work papers for a minimum of 50 audits. Generally, these reviews determine if the auditors' conclusions and findings are supported by documentation and if any significant findings were not reported. A report summarizing the results of our work will be issued in September 1999.
URL: http://oig.lsc.gov/reports/rrar/au99016.htm